LEGAL PRINTERS

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

December 8, 2020

L. LIN WOOD, JR. V. BRAD RAFFENSPERGER, ET AL.

Dear Sir or Madam:
I hereby certify that at the request the Petitioner on December 8, 2020 I caused service to be made pursuant to
Rule 29 and the Temporary Order of April 15, 2020 on the following counsel for Respondents:
CHRISTOPHER M. CARR
Deputy Attorney General
BRYAN K. WEBB
Deputy Attorney General
Russell D. Willard
Senior Assistant Attorney General
Charlene S. McGowan
Assistant Attorney General
40 Capitol Square SW
Atlanta, GA 30334
(404) 458-3658
cmcgowan@law.ga.gov
Susan Baker Manning
Jeremy P. Blumenfeld
Catherine North Hounfodji
MORGAN, LEWIS & BOCKIUS LLP
1111 Pennsylvania Avenue, NW
Washington, DC 20004
Telephone: (202)739-3000
Facsimile: (202) 739-3001
susan.manning@morganlewis.com
jeremy.blumenfeld@morganlewis.com
catherine.hounfodji@morganlewis.com
william.childress@moreganlewis.com
chris.miller@morganlewis.com
benjamin.hand@morganlewis.com
Gillian C. Kuhlmann
PERKINS COIE LLP
1888 Century Park East, Suite 1700
Los Angeles, California 90067
Telephone: (310) 788-3900
gkuhlmann@perkinscoie.com
clerk@bossierclerk.com

Adam M. Sparks
Halsey G. Knapp, Jr.
Joyce Gist Lewis
Susan P. Coppedge
Adam M. Sparks
KREVOLIN AND HORST, LLC
One Atlantic Center
1201 W. Peachtree Street, NW, Ste.
3250 Atlanta, GA 30309
Telephone: (404) 888-9700
Facsimile: (404) 888-9577
hknapp@khlawfirm.com
jlewis@khlawfirm.com
coppedge@khlawfirm.com
sparks@khlawfirm.com
Marc E. Elias
Amanda R. Callais
Alexi M. Velez
Emily R. Brailey
PERKINS COIE LLP
700 Thirteenth Street NW, Suite 800
Washington, DC 20005
Telephone: (202) 654-6200
melias@perkinscoie.com
acallais@perkinscoie.com
avelez@perkinscoie.com
ebrailey@perkinscoie.com
Bryan L. Sells
Law Office of Bryan L. Sells, LLC
P.O. Box 5493
Atlanta, GA 31107-0493
(404) 480-4212
bryan@bryansellslaw.com

Julie M. Houk
jhouk@lawyerscommittee.org
LAWYERS' COMMITTEE FOR
CIVIL RIGHTS UNDER LAW
1500 K Street NW, Suite 900
Washington, DC 20005
Telephone: (202) 662-8300
John Powers
jpowers@lawyerscommittee.org
Kristen Clarke
kclarke@lawyerscommittee.org
Jon M. Greenbaum
jgreenbaum@lawyerscommittee.org
Ezra D. Rosenberg
Kevin J. Hamilton
Amanda J. Beane
PERKINS COIE LLP
1201 Third Avenue, Suite 4900
Seattle, Washington 98101
Telephone: (206) 359-8000
khamilton@perkinscoie.com
abeane@perkinscoie.com
Matthew J. Mertens
Georgia Bar No: 870320
PERKINS COIE LLP
1120 NW Couch Street, 10th Floor
Portland, Oregon 97209
Telephone: (503) 727-2000

This service was effected by depositing one copy of the Motion for Expedited Consideration and Petition for Writ of
Certiorari in an official "first class mail" receptacle of the United States Post Office as well as by transmitting a digital copy
via electronic mail.
Sincerely,
Sworn and subscribed before me this 8th day of December 2020.

Jack Suber, Esq.
Principal

